No. 19-58
IN THE

Supreme Court of the United States
_________
XITRONIX CORPORATION,
Petitioner,
v.
KLA-TENCOR CORPORATION, DBA KLA-TENCOR, INC.,
Respondent.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
________
REPLY BRIEF IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI
________
MICHAEL S. TRUESDALE
ENOCH KEVER PLLC
5918 W. Courtyard Dr.,
Suite 500
Austin, TX 78730

ADAM G. UNIKOWSKY
Counsel of Record
JENNER & BLOCK LLP
1099 New York Ave., NW,
Suite 900
Washington, DC 20001
(202) 639-6000
aunikowsky@jenner.com

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES .......................................... ii
ARGUMENT ...................................................................... 2
I.

CHRISTIANSON
ESTABLISHES
THAT REVIEW IS WARRANTED. ................ 2

II.

THE CIRCUIT SPLIT WILL CAUSE
PRACTICAL PROBLEMS. ................................ 4

III.

THERE
IS
WIDESPREAD
CONFUSION ON AN ISSUE OF
NATIONAL IMPORTANCE. ............................. 7

IV.

THE FIFTH CIRCUIT, NOT THE
FEDERAL
CIRCUIT,
HAS
JURISDICTION. ................................................... 9

CONCLUSION ................................................................ 12

ii
TABLE OF AUTHORITIES
CASES
Christianson v. Colt Industries Operating
Corp., 486 U.S. 800 (1988) .............................. 2, 3, 10
Gunn v. Minton, 568 U.S. 251 (2013) ..................... 6, 12
In re Lipitor Antitrust Litigation, 855 F.3d
126 (3d Cir. 2017) ...................................................... 7
Parker Drilling Management Services, Ltd. v.
Newton, 139 S. Ct. 914 (2019) .................................. 4
Perry v. Merit Systems Protection Board, 137
S. Ct. 1975 (2017)....................................................... 9
Walker Process Equipment, Inc. v. Food
Machinery & Chemical Corp., 382 U.S.
172 (1965) ................................................................. 11
STATUTES
28 U.S.C. § 1295(a)(1) ................................................... 12
28 U.S.C. § 1338(a) ........................................................ 11

1
This case1 presents as clear a circuit split as the
Court is ever going to see. The Federal Circuit issued
a binding, precedential decision transferring this case
to the Fifth Circuit on the ground that the Federal
Circuit lacked jurisdiction. The Fifth Circuit issued a
binding, precedential decision transferring the case
back to the Federal Circuit on the ground that the
Federal Circuit had exclusive jurisdiction.
After the Fifth Circuit transferred the case back to
the Federal Circuit, the Federal Circuit issued an order
holding that the Fifth Circuit’s order was sufficiently
“plausible” that the Federal Circuit would accept
jurisdiction and decide the case on the merits. But the
Federal Circuit neither vacated, nor walked back from,
its prior decision. To the contrary, it doubled down on
its view that the Fifth Circuit’s decision was wrong—
and therefore eliminated any doubt that there is a
circuit split. Now that the Federal Circuit has affirmed
the District Court’s judgment on the merits, the split
cannot be resolved without this Court’s intervention.
The Court should grant certiorari. The Federal and
Fifth Circuit’s opinions are written broadly enough that
each circuit will now require a large category of appeals
to be transferred to the other circuit. Even in other
1 This reply brief supports Xitronix’s petition in No. 19-58, which

seeks review of the Federal Circuit’s final judgment. Xitronix’s
petition in No. 18-1170, seeking review of the Fifth Circuit’s
transfer order, is also pending. Xitronix filed this separate
petition to ensure that the final judgment was squarely before the
Court; as with the petition and brief in opposition, the reply brief
in No. 19-58 is similar to the reply brief in No. 18-1170.

2
judicial circuits, litigants will have no idea where to
appeal—leading to time-consuming and wasteful
litigation over where to litigate. The Court should
resolve that confusion and set a clear jurisdictional rule.
ARGUMENT
I.

CHRISTIANSON ESTABLISHES
REVIEW IS WARRANTED.

THAT

KLA-Tencor asserts that because the Federal
Circuit decided this appeal on the merits, the case for
certiorari has “crumbled.” BIO 2. It further insists
that the Fifth and Federal Circuits “followed”
Christianson’s “instructions,” such that “the process in
this case played out as this Court had prescribed in
Christianson.” BIO 2, 7. KLA-Tencor errs on both
counts.
The case for certiorari here is the same as the case
for certiorari in Christianson itself. Christianson did
not involve a case ping-ponging between circuits
forever. Rather, in Christianson, as here, the Federal
Circuit decided the case on the merits, notwithstanding
that the Federal Circuit and the regional circuit had
issued dueling opinions holding that the other circuit
had jurisdiction.
Christianson v. Colt Industries
Operating Corp., 486 U.S. 800, 807 (1988). The Court
observed that the dueling opinions created a “peculiar
jurisdictional battle”: the parties “have been forced to
shuttle their appeal back and forth between Chicago
and the District of Columbia in search of a hospitable
forum, ultimately to have the merits decided, after two
years, by a Court of Appeals that still insists it lacks
jurisdiction to do so.” Id. at 803-04. Exactly the same

3
thing happened here: the parties shuttled from the
District of Columbia to New Orleans and back, only to
have the merits decided by the Federal Circuit, which
still has binding precedent holding it lacks jurisdiction.
The Court should grant certiorari to resolve the split,
just as it did in Christianson.
Contrary to KLA-Tencor’s assertion, the process in
this case did not play out as prescribed in Christianson.
In Christianson, this Court attempted to ward off such
splits by holding that lower courts should “adher[e]
strictly to principles of law of the case”: “[I]f the
transferee court can find the transfer decision
plausible, its jurisdictional inquiry is at an end.” Id. at
818-19. Had the process played out as Christianson
intended, the Fifth Circuit would have deemed the
Federal Circuit’s decision plausible—regardless of
whether the Fifth Circuit agreed with the Federal
Circuit—and there would have been no circuit split.
But that did not happen. Instead, the Fifth Circuit
deemed the Federal Circuit’s transfer order
implausible, and sent the case back to the Federal
Circuit. This created a Hobson’s choice for the Federal
Circuit: either cause the case to ping-pong between the
circuits forever, or exercise jurisdiction despite circuit
precedent holding that it lacked jurisdiction. The
Federal Circuit chose the latter course, deeming the
Fifth Circuit’s transfer order to be “plausible”—but
reiterating its conclusion that the Fifth Circuit’s
decision was wrong.
Thus, both circuits have
precedential opinions establishing that the other circuit
has jurisdiction, but the Federal Circuit blinked first.
This is not the procedure that Christianson

4
contemplated.
KLA-Tencor may be right that there is no split on
whether it is plausible that the Federal Circuit has
jurisdiction. BIO 8. But there is definitely a split on
the question presented: which court has jurisdiction?
Such circuit splits reflect the exact scenario
Christianson sought to prevent.
II.

THE CIRCUIT SPLIT WILL
PRACTICAL PROBLEMS.

CAUSE

As the petition explained, a split this clear—even
with only one circuit on each side—is a sufficient basis
for granting certiorari. Pet. 13-14; see, e.g., Parker
Drilling Mgmt. Servs., Ltd. v. Newton, 139 S. Ct. 914
(2019) (granting certiorari to resolve split between
Fifth and Ninth Circuits). But here, the case for
review is especially clear in light of the practical
problems the split will create.
For any litigant within the Fifth Circuit who seeks
to file an appeal in a standalone Walker Process suit,
there is now no way to file an appeal without violating
circuit precedent. If an appeal is filed in the Fifth
Circuit, the court will be bound by its precedential
decision to transfer the appeal to the Federal Circuit.
If an appeal is filed in the Federal Circuit, the court will
be bound by its precedential decision to transfer the
case to the Fifth Circuit. The Fifth Circuit will be
bound by its precedential decision to hold that the
transfer order is so implausible that the case must be
transferred back to the Federal Circuit. Only then,
assuming a future Federal Circuit panel follows the
panel’s unpublished order here finding that the Fifth

5
Circuit’s order is “plausible,” can the case be decided.
The result will be ironic. In the interest of respecting
the Federal Circuit’s expertise over patent litigation,
cases will be transferred to the Federal Circuit—which,
according to the Federal Circuit’s own expert
judgment, should not be decided in the Federal Circuit.
KLA-Tencor does not dispute this. Instead, it
argues that certiorari should be denied because the
class of litigants affected by this quandary is too
narrow. BIO 9-10. This is a strikingly weak basis for
opposing certiorari. There is a clear circuit split, there
are no vehicle problems, and the circuit split will make
it impossible for future litigants to file an appeal that
complies with circuit precedent. KLA-Tencor merely
quibbles with how many litigants will find themselves
in that quandary.
And contrary to KLA-Tencor’s assertions, there
will be many. KLA-Tencor claims that this case is
“unusual” (BIO 9), but it identifies nothing “unusual”
about it other than that it is a stand-alone Walker
Process claim—i.e., it is not conjoined to a patent claim
that would vest the Federal Circuit with jurisdiction.
BIO 9-10. Thus, KLA-Tencor does not dispute that the
circuit split applies to all stand-alone Walker Process
claims filed within the Fifth Circuit. There is nothing
unusual about such claims. They arise whenever a
patentee’s illegal obtaining of a patent prevents the
patentee’s competitors from marketing a competing
product. In that scenario, there is no infringing
product, so there no reason for a patent infringement
case; the competitor’s sole remedy is a Walker Process
claim.

6
Notably, the Fifth Circuit’s transfer order observed
that “[f]ollowing Christianson, the Federal Circuit has
regularly exercised jurisdiction over Walker Process
claims.” Pet. App. 22a. It also collected cases from the
Second, Third, and Ninth Circuits deciding appeals in
stand-alone Walker Process cases. Id. Similarly, the
premise of Judge Newman’s dissent from denial of
rehearing en banc is that the Federal Circuit had
frequently exercised jurisdiction over such claims: she
objected to the “panel’s discard of decades of
precedent.” Pet. App. 63a. While Xitronix disagrees
with the Fifth Circuit and Judge Newman’s view of the
merits, Xitronix agrees with the Fifth Circuit and
Judge Newman that this is not an idiosyncratic type of
case. Indeed, it is considerably less idiosyncratic than
Christianson, where the patent issue was a defense in a
trade secrets case.
Even worse, the split between the Fifth Circuit and
Federal Circuit goes beyond Walker Process claims.
The two courts disagree on the fundamental question of
whether Gunn v. Minton, 568 U.S. 251 (2013),
establishes the test for appellate jurisdiction. The
Federal Circuit held that Gunn’s analysis applies to the
appellate jurisdiction inquiry. Pet. App. 47a. By
contrast, the Fifth Circuit found “compelling reasons to
think that [Gunn] did not” change the “scope of the
Federal Circuit’s jurisdiction.” Pet. App. 32a. KLATencor does not dispute this split—to the contrary, it
doubles down on the Fifth Circuit’s conclusion that
Gunn does not apply. BIO 18-20.
Thus, the Federal Circuit thinks that Gunn
provides the test for appellate jurisdiction, while the

7
Fifth Circuit does not. Consequently, in any nonpatent case raising an embedded patent-law question—
whether a Walker Process claim, or otherwise—the
Fifth Circuit and Federal Circuit disagree on what test
to apply to determine appellate jurisdiction.
Litigants from the Fifth Circuit in a wide range of
cases raising patent-law issues will find themselves
between rocks and hard places in deciding where to file
an appeal. Wherever they file an appeal, circuit
precedent will hold that their appeal is in the wrong
place. This type of perverse result is precisely why this
Court grants certiorari to resolve circuit splits.
III.

THERE IS WIDESPREAD CONFUSION
ON
AN
ISSUE
OF
NATIONAL
IMPORTANCE.

Even beyond the split between the Fifth and
Federal Circuit, there is widespread national confusion
over appellate jurisdiction in non-patent cases
presenting embedded issues of patent law.
Since Gunn was decided, the Third, Eleventh, and
D.C. Circuits have resolved disputes over the scope of
the Federal Circuit’s jurisdiction. See Pet. 19-22.
These decisions underscore that litigants in such cases
will have no idea where to appeal. Contrary to KLATencor’s assertion (BIO 15-16 n.4), the circuits disagree
on the basic question of whether Gunn’s test applies to
appellate jurisdiction: The Federal, D.C., and Eleventh
Circuit have answered yes, the Fifth Circuit has
answered no, and the Third Circuit has deemed the
issue “open to debate.” In re Lipitor Antitrust Litig.,
855 F.3d 126, 146 (3d Cir. 2017); see Pet. 21-22. The

8
circuits also disagree on whether jurisdiction should
turn on the nature of the patented technology; the
Eleventh Circuit has indicated that it should, while no
other circuit has deemed this to be a relevant factor.
Pet. 22. Indeed, the Federal Circuit thought all three
cases “confirm the correctness” of its decision to
transfer the case to the Fifth Circuit, Pet. App. 47a-48a,
while the Fifth Circuit cited all three cases in
transferring the case back. Pet. App. 27a-28a. KLATencor asserts that these cases are “fact-specific,” BIO
15, but it ignores Xitronix’s showing that these circuits
have fundamental disagreements as to the applicable
legal standard.
KLA-Tencor also fails to address Xitronix’s
showing that the circuit split will lead to appellate
forum-shopping. Pet. 22-23. If a litigant in a Walker
Process case, or similar non-patent case, wants to be in
a regional circuit, then it has the incentive to notice its
appeal to the Federal Circuit. Guided by its decision in
this proceeding, the Federal Circuit may transfer the
case to the regional circuit, and the regional circuit will
be obliged to defer to that decision if it is “plausible.”
Conversely, a litigant who wants to be in the Federal
Circuit should appeal to a regional circuit; if the case is
transferred, then the Federal Circuit may deem the
transfer order “plausible” despite its own precedent
holding that the transfer order is wrong. Appellate
forum-shopping is bad enough; this sort of bizarre
reverse-psychology forum-shopping is even worse. Id.
Jurisdictional rules should be clear. This Court has
granted certiorari to resolve such jurisdictional
confusion even in cases without circuit splits. See, e.g.,

9
Perry v. Merit Sys. Prot. Bd., 137 S. Ct. 1975, 1983
(2017) (granting certiorari to resolve whether certain
federal employee appeals should be filed in district
court or Federal Circuit, but noting that D.C. Circuit
and Federal Circuit had reached the same conclusion on
that question). Indeed, even before the Fifth Circuit
created the split, Judge Newman attested to “the
importance of this decision to the judicial structure of
patent adjudication, and the future of a nationally
consistent United States patent law.” Pet. App. 53a.
Now that there is a split, the case for certiorari is even
stronger.
IV.

THE
FIFTH
CIRCUIT,
NOT
FEDERAL
CIRCUIT,
JURISDICTION.

THE
HAS

The Federal Circuit lacked jurisdiction to issue its
final judgment on the merits. Under this Court’s
precedents, the Fifth Circuit has jurisdiction.2
2 Contrary to the BIO’s statement (BIO 15 n.3), Xitronix did not

engage in “mid-case forum-shopping.” As the petition explained,
before the Federal Circuit’s initial transfer decision, Xitronix took
the position that the Federal Circuit has jurisdiction in light of
Federal Circuit cases that had exercised jurisdiction over Walker
Process cases. Pet. 6. But after the Federal Circuit issued its
transfer decision, Xitronix has consistently argued that the
transfer decision is correct, and has consistently argued that the
Fifth Circuit has jurisdiction. Thus, Xitronix opposed rehearing
en banc in the Federal Circuit, accepting the Federal Circuit’s
analysis of its own jurisdiction. Pet. 8. In the Fifth Circuit,
Xitronix likewise argued that the Fifth Circuit has jurisdiction.
Pet. 8. After the Fifth Circuit issued its transfer decision—but
before the Federal Circuit ruled on the merits—Xitronix filed this

10
KLA-Tencor claims that Xitronix has issued a “call
for this Court to overrule Christianson.” BIO 11. It
claims that stare decisis requires the Court to hold that
the Federal Circuit has jurisdiction. BIO 11. This is a
puzzling argument because the petition explained why
Christianson’s holding establishes that the Fifth
Circuit has jurisdiction. Pet. 24-26.
In Christianson, this Court held that a trade secrets
claim that included a patent-law defense did not “arise
under” the patent laws for jurisdictional purposes. It
explained that if “on the face of a well-pleaded
complaint there are … reasons completely unrelated to
the provisions and purposes of the patent laws why the
plaintiff may or may not be entitled to the relief it
seeks, then the claim does not ‘arise under’ those laws.”
486 U.S. at 810 (quotation marks and brackets omitted)
(ellipsis in original).
In Walker Process cases, there are “reasons
completely unrelated to the provisions and purposes of
the patent laws why the plaintiff may or may not be
entitled to the relief it seeks.” Id. (quotation marks and
brackets omitted). As the petition explained, Walker
Process expressly holds that a plaintiff cannot obtain
relief if it fails to show a relevant antitrust market3—a
petition for certiorari, again arguing that the Fifth Circuit has
jurisdiction.
3 KLA-Tencor claims, in a footnote that did not appear in its prior

BIO, that this interpretation would render Christianson
“nonsensical.” BIO 18 n.5.
KLA-Tencor’s theory is that
Christianson could hypothetically have relied on this “relevant
market” argument as a basis for holding that the claim under

11
concept completely unrelated to the provisions and
purposes of the patent laws. Pet. 24-26; see Walker
Process Equipment, Inc. v. Food Machinery &
Chemical Corp., 382 U.S. 172, 177-78 (1965). Thus,
under Christianson, stand-alone Walker Process claims
go to the regional circuits.4
Indeed, it is KLA-Tencor, not Xitronix, that seeks
to overrule Christianson. Christianson holds that an
antitrust claim that may, or may not, be resolved based
on an embedded patent question must go to the
regional circuit.
KLA-Tencor’s position is the
diametric opposite of that holding: it contends that an
antitrust claim that may, or may not, be resolved based
on an embedded patent question must go to the Federal
Circuit.
Moreover, contrary to KLA-Tencor’s assertion
(BIO 17), this Court’s decision in Gunn is not limited to
the division of jurisdiction between federal district
courts and state courts; it also governs the division of
jurisdiction between the Federal Circuit and regional
circuits. Gunn construed 28 U.S.C. § 1338(a), which
provides, in relevant part, that federal district courts
Section 2 of the Sherman Act goes to the regional circuit, and
because it reached the same holding on a different basis, the
argument must be wrong. Id. But Christianson also involved a
claim under Section 1 of the Sherman Act, 486 U.S. at 810, so it is
no surprise that the Court ruled on a ground common to both
claims.
4 Of course, this Court would have the option of modifying or

clarifying Christianson’s test if it so chooses. Pet. 29. But if the
Court applies Christianson’s test literally, Xitronix prevails.

12
have exclusive jurisdiction over “any civil action arising
under any Act of Congress relating to patents.” This
case involves the construction of 28 U.S.C. § 1295(a)(1),
which provides, in relevant part, that the Federal
Circuit has exclusive jurisdiction over appeals from
“any civil action arising under … any Act of Congress
relating to patents.” As the Federal Circuit correctly
stated, the two statutes are “indistinguishable.” Pet.
App. 47a. Nothing in Gunn suggested that the Court
was creating two different tests for these two
identically-worded statutes.
Indeed, Gunn cited
Christianson’s discussion of the relevant legal standard
with approval. 568 U.S. at 257.
KLA-Tencor barely disputes that under Gunn,
Xitronix prevails. The subsidiary patent-law issues in
Walker Process cases are no more “substantial” than
the subsidiary patent-law issues in the malpractice
cases at issue in Gunn. Pet. 27-29.
In sum, under both Christianson and Gunn, the
Fifth Circuit has jurisdiction. The judgment below
should be reversed.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,

13
MICHAEL S. TRUESDALE
ENOCH KEVER PLLC
5918 W. Courtyard Dr.,
Suite 500
Austin, TX 78730

ADAM G. UNIKOWSKY
Counsel of Record
JENNER & BLOCK LLP
1099 New York Ave., NW,
Suite 900
Washington, DC 20001
(202) 639-6000
aunikowsky@jenner.com

